      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General


                                                                          Washington, D.C. 20201




September 7, 2010

TO:            Yvette Sanchez Fuentes
               Director, Office of Head Start
               Administration for Children and Families


FROM:          /George M. Reeb/
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Review of New Jersey’s Adoption Assistance Subsidies Submitted for Federal
               Reimbursement as a Result of Its Contract With Maximus, Inc. (A-02-09-02019)


Attached, for your information, is an advance copy of our final report on New Jersey’s adoption
assistance subsidies submitted for Federal reimbursement as a result of its contract with
Maximus, Inc. We will issue this report to New Jersey within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov
or James P. Edert, Regional Inspector General for Audit Services, Region II, at (212) 264-4620 or
through email at James.Edert@oig.hhs.gov. Please refer to report number A-02-09-02019.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services
                                                                          Jacob Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278

September 8, 2010

Report Number: A-02-09-02019

Allison Blake, Ph.D., L.S.W.
Commissioner
New Jersey Department of Children and Families
222 South Warren Street
P.O. Box 729
Trenton, NJ 08625-0729-700

Dear Dr. Blake

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of New Jersey’s Adoption Assistance Subsidies
Submitted for Federal Reimbursement as a Result of Its Contract With Maximus, Inc. We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact John Madigan, Audit Manager, at (518) 437-9390, extension 224, or through email at
John.Madigan@oig.hhs.gov. Please refer to report number A-02-09-02019 in all
correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Allison Blake, Ph.D., L.S.W.


Direct Reply to HHS Action Official:

Ms. Carolyn Baker-Goode
Acting Regional Program Manager
Administration for Children and Families
26 Federal Plaza, Room 4114
New York, NY 10278
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




REVIEW OF NEW JERSEY’S ADOPTION
ASSISTANCE SUBSIDIES SUBMITTED
FOR FEDERAL REIMBURSEMENT AS A
  RESULT OF ITS CONTRACT WITH
         MAXIMUS, INC.




                       Daniel R. Levinson
                        Inspector General

                        September 2010
                         A-02-09-02019
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title IV-E of the Social Security Act, the Department of Health & Human Services,
Administration for Children and Families (ACF), administers the adoption assistance program.
The adoption assistance program provides Federal funds to States to facilitate the timely
placement of children whose special needs or circumstances would otherwise make them
difficult to place with adoptive families. Monthly adoption subsidies assist adoptive families
with the care of eligible children.

In New Jersey, the Department of Children and Families (the State agency) is responsible for
administering the Title IV-E adoption assistance program. To claim these costs for Title IV-E
reimbursement, the State agency submits claims on a quarterly basis to ACF. To determine its
quarterly expenditures, the State agency uses an electronic database that contains adoption
assistance subsidy information for the entire State.

In September 2004, New Jersey awarded a contingency fee contract to Maximus, Inc.
(Maximus), to perform reviews of Title IV-E determinations made by the State agency regarding
individual cases. During its review process, Maximus recommended that the State agency
categorize some adoption assistance subsidies, for which it had not received Federal
reimbursement, as eligible for Title IV-E reimbursement based on Federal eligibility
requirements. As a result of its contract with Maximus, the State agency claimed $19,246,941
($9,623,470 Federal share) in adoption assistance subsidies from October 1, 2003, through
June 30, 2007.

OBJECTIVE

Our objective was to determine whether adoption assistance subsidies that the State agency
identified as a result of its contract with Maximus were claimed twice for Federal
reimbursement.

SUMMARY OF FINDINGS

The State agency claimed Federal reimbursement twice for the same $9,623,470 ($4,811,735
Federal share) in adoption assistance subsidies identified as a result of its contract with
Maximus. This occurred because the State agency’s procedures for reporting adoption assistance
subsidies on its quarterly expenditure reports were inadequate.

RECOMMENDATION

We recommend that the State agency refund $4,811,735 to the Federal Government.




                                               i
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our finding and
recommendation. The State agency’s comments are included in their entirety as the appendix.




                                              ii
                                                  TABLE OF CONTENTS

                                                                                                                          Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Title IV-E Adoption Assistance Program ....................................................1
              New Jersey’s Adoption Assistance Program ...............................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................1
               Objective ......................................................................................................1
               Scope ............................................................................................................2
               Methodology ................................................................................................2

FINDING AND RECOMMENDATION .........................................................................3

          DUPLICATE CLAIMS FOR ADOPTION ASSISTANCE SUBSIDIES...............3

          RECOMMENDATION ...........................................................................................3

          STATE AGENCY COMMENTS ............................................................................3

APPENDIX

           STATE AGENCY COMMENTS




                                                                    iii
                                              INTRODUCTION

BACKGROUND

Title IV-E Adoption Assistance Program

Pursuant to Title IV-E of the Social Security Act, the Department of Health & Human Services,
Administration for Children and Families (ACF), administers the adoption assistance program.
The adoption assistance program provides Federal funds to States to facilitate the timely
placement of children whose special needs or circumstances would otherwise make them
difficult to place with adoptive families. Monthly adoption subsidies assist adoptive families
with the care of eligible children.

New Jersey’s Adoption Assistance Program

In New Jersey, the Department of Children and Families (the State agency) is responsible for
administering the Title IV-E adoption assistance program. 1 To claim these costs for Title IV-E
reimbursement, the State agency submits claims on a quarterly basis to ACF. To determine its
quarterly expenditures, the State agency uses an electronic database that contains adoption
assistance subsidy information for the entire State.

In September 2004, New Jersey awarded a contingency fee contract to Maximus, Inc.
(Maximus), to perform reviews of Title IV-E determinations made by the State agency regarding
individual cases. 2 During its review process, Maximus recommended that the State agency
categorize 5,194 adoption assistance subsidies, for which it had not received Federal
reimbursement, as eligible for Title IV-E reimbursement based on Federal eligibility
requirements. As a result of this contract with Maximus, the State agency claimed an additional
$19,246,941 ($9,623,470 Federal share) in adoption assistance subsidies.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether adoption assistance subsidies that the State agency
identified as a result of its contract with Maximus were claimed twice for Federal
reimbursement.




1
 Within the State agency, the Division of Youth and Family Services (DYFS) is responsible for investigating
allegations of child abuse and neglect and, if necessary, arranging for child protection and family treatment. DYFS
may ask the local family court to place the child in foster care. If the family court determines a child cannot be
safely returned home from foster care, DYFS assists with adoption planning.
2
 The contract was awarded by the State’s Department of the Treasury, Office of Management and Budget.
According to the terms of the contract, Maximus received $170 per case provided that each Title IV-E determination
made by the State agency was accurate.


                                                         1
Scope

Our audit covered adoption assistance subsidies for which the State agency claimed $19,246,941
($9,623,470 Federal share) during Federal fiscal years (FYs) 2004 through 2007 as a result of the
Maximus contract. During our audit, we did not review claims for adoption assistance subsidies
submitted for Federal reimbursement for compliance with Federal eligibility requirements. 3 In
addition, we did not review the overall internal control structure of the State agency. Rather, we
reviewed only those internal controls that pertained directly to the objective of our audit.

We performed our fieldwork during June and July 2009 at the State agency’s offices in Trenton,
New Jersey.

Methodology

To accomplish our objective, we:

    •   reviewed relevant Federal regulations;

    •   reviewed New Jersey’s contingency fee contract with Maximus;

    •   held discussions with State agency officials regarding how the agency claimed Federal
        reimbursement for adoption assistance subsidies;

    •   obtained from the State agency a database of adoption assistance subsidy claims paid by
        the State agency to adoptive families during FYs 2004 through 2007;

    •   reconciled this database to claims submitted by the State agency on its quarterly
        expenditure reports for Federal reimbursement;

    •   identified adoption assistance subsidy claims submitted twice for Federal reimbursement
        for FY 2006; and

    •   obtained from the State agency and validated a list of adoption assistance subsidy claims
        submitted twice by the State agency for Federal reimbursement for FYs 2004, 2005, and
        2007.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.



3
  We are conducting a separate review of Title IV-E adoption assistance subsidies for compliance with Federal
reimbursement requirements for claims submitted during FY 2006 (A-02-09-02003).



                                                        2
                           FINDING AND RECOMMENDATION

The State agency claimed Federal reimbursement twice for the same $9,623,470 ($4,811,735
Federal share) in adoption assistance subsidies identified as a result of its contract with
Maximus. This occurred because the State agency’s procedures for reporting adoption assistance
subsidies on its quarterly expenditure reports were inadequate.

DUPLICATE CLAIMS FOR ADOPTION ASSISTANCE SUBSIDIES

Pursuant to Office of Management and Budget Circular A-87, Cost Principles for State, Local,
and Indian Tribal Governments, Att. A, § C.1.a (2 CFR, pt. 225, App. A, § C.1.a), costs
submitted under a Federal award must be necessary and reasonable.

The State agency claimed Federal reimbursement twice for the same $9,623,470 ($4,811,735
Federal share) in adoption assistance subsidies identified as a result of its contract with
Maximus. Specifically, on a quarterly basis, from the first quarter of FY 2004 through the third
quarter of FY 2007, the State agency claimed a total of 5,194 duplicate adoption assistance
subsidies.

This occurred because the State agency’s procedures for reporting adoption assistance subsidies
on its quarterly expenditure reports were inadequate. To determine its quarterly expenditures,
the State agency used an electronic database which recorded adoption assistance subsidy
information for the entire State. This database included all adoption assistance subsidies
identified by Maximus. However, the State agency also generated a separate report on adoption
assistance subsidies identified by Maximus and included the same exact claim information in the
quarterly expenditure reports. As a result, the State agency duplicated all of its claims for
adoption assistance subsidies identified by Maximus.

In June 2007, during our audit period, the State agency revised its procedures for reporting
adoption assistance subsidies. We determined that, beginning in the fourth quarter of FY 2007,
the State agency’s quarterly expenditure reports did not include duplicate claims for adoption
assistance subsidies identified as a result of its contract with Maximus.

RECOMMENDATION

We recommend that the State agency refund $4,811,735 to the Federal Government.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our finding and
recommendation. The State agency’s comments are included in their entirety as the appendix.




                                                3
APPENDIX
                                                                                                                Page I of2

                             APPENDIX: STAT E AGENCY COMMENTS 





                                               ~lnte of J!'e£U :lJeroeu
CURlS CHRISTIE                            DEp,l.RnlF,.lIoT Of' CtllI.DKEN AND FAMIUES

   """m~                                                P:O.Box 729
KIM GUADAGNO                                     TRENTOS, NJ 08625-0729                   At..LlSON BLAKE, PH.D., L.S. W.
  t.l. G<WI'J'NOI'                                                                                 ComMW;"-'

                                                       July 22, 2010



          United States Department of Health & l luman Services
          Office of Inspector General. Region II
          Jacob Javi!s Federal Building
          26 Feder'!l Plaza - Room 3900
          New York. NY 10278

                     Attention: James P. Eden
                                Regionallnspcctor General for Audit Services

                     Re: RcpOtt Number A-02·09~02019

          Dear Mr. Eden:

          I am writing to you in response to your letter dated June 22, 2010, concernin g rt.-pon number
          A.{l2·09-<l2019 entitled "Review of New Jerse y's Adoption Assistance Subsidies Submitted for
          Federal Rcimbursemcni as a Result of Its Contract with Maximus. Inc,"

          During federal fiscal years 2004-2007. certain adoption assistance subsidies \verc claim{.'1i by
          New Jersey as a result of a contract with Maximus. Inc. The data used to claim these adoption
          assistance costs was obtained through New Jersey's database: Service Infonnation System (SIS).

          These adoption assistance costs were summari zed on two reports that were submitted for
          reimbufsement via the Fcdcml IV-E-l report; the SI 112-3 Adoption Assistance Costs and the
          S I 11 2-5 Adoption Assistance Cost~ fOT Maximus Clients. It was not appa rent until the audit that
          the costs for the Maxim us clients were also included in the S I 112-3 adoption assistance claiming
          data.

          The Department of Children and Families (OCF) concurs with your finding in this matter and
          agrees with your detcmlination, as staled in your report, that ..... beginning in the founh quarter
          of FY2007. the State age ncy's quanerly expenditure reports did not include d uplicate claims fOf
          adoption assistance subsidies identified as a result of its cont ract with Maximus." DCF will take
          the necessary steps to process repayment of the duplicate payments that were identified by your
          office.

          With the implementation of New Jersey's SACWIS system (N1S PIRIT) on August 2 1, 2007,
          DCF has taken appropriate action to insure that there will be no duplication of any fede ral
          claiming costs .
                                                                                            Page 2 of2



James P. Edert
July 22, 2010
Page 2


rf you have any questions or concerns plea~c contact Alfonso Nicholas, Assistant Director for
Revenue, Financial Reporting and Title lV-E Operation~ at 609-633-6904.

                                          Sincerely,


                                            iJflw;nPa4.
                                          Allison Blake, Ph.D., LS.W.
                                          Commissioner

AB:IC
